No. 20-240

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2019

COMMONWEALTH OF KENTUCKY,
Commonwealth
vs.
LARRY LAMONT WHITE
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

RESPONDENT LARRY LAMONT WHITE
BRIEF IN OPPOSITION

 

AFFIDAVIT PURSUANT TO
SUPREME COURT RULE 29.2

J, Kathleen Kallaher Schmidt, being first duly sworn according to law, depose and
say:

1. Iam a member of the Bar of the Supreme Court of the United States.

2. Iam counsel of record for Respondent in the above-styled action.

8. The attached Brief in Opposition, Motion For Leave To Proceed Jn Forma
Pauperis, Certificate of Service and Appendix were mailed from the United States

Post Office, on Wilkinson Street, Frankfort, Kentucky 40601, by having the post
office postmark the Petition on October 27, 2020, and mailed to the Supreme Court
by first class mail postage prepaid.

4. The aforementioned documents were deposited in the United States Post Office,
with first-class postage prepaid, and properly addressed to Mr. Scott S. Harris,
Office of the Clerk of the United States Supreme Court, One First Street, N.E.,
Washington, D.C. 20543.

Respectfully submitted,

Cattle Mil. A forctg

*KATHLEEN KALLAHER SCHMIDT
ERIN HOFFMAN YANG

*Counsel of Record

Assistant Public Advocate

Kentucky Department of Public Advocacy
5 Mill Creek Park, Ste. 100

Frankfort, Kentucky 40601

(502) 564-8006

Kathleen.schmidt@ky.gov
Eron.yang@ky.gov

Subscribed and sworn to before me by Kathleen Kallaher Schmidt, on this 27th day
of October, 2020.

   

-Y PUBLIC, STATE AT LARGE

My Commission Expires: G/ Yo [PARK

LINDA DINUNZI
NOTARY PUBLIC
STATE AT LARGE

KENTUCKY

 
